                Processing Improvements Have Helped
              Ensure United States Estate Tax Return Filers
                Receive the Maximum Allowable Credits

                                     July 2004

                       Reference Number: 2004-30-120




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       July 14, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Processing Improvements Have Helped
                                     Ensure United States Estate Tax Return Filers Receive the
                                     Maximum Allowable Credits (Audit # 200330029)


       This report presents the results of our review of the processing of allowable credits on
       United States Estate Tax Returns (Form 706). The overall objective of this review was
       to evaluate the effectiveness of the Internal Revenue Service’s (IRS) corrective actions
       taken in response to the recommendations in a prior Treasury Inspector General for Tax
       Administration report.1 This included evaluating the actions planned or taken to update
       or create necessary computer programs, processing procedures, tax forms, instructions,
       and publications related to Form 706.
       In summary, the IRS effectively implemented the corrective actions agreed to in our
       prior audit report. In that report, we determined that understatements of unified credit
       amounts,2 which resulted in incorrect estate taxes, were not identified and adjusted
       during processing. During this review, we found the IRS’ corrective actions effectively
       ensured filers received the maximum unified credit amounts in accordance with tax law
       changes.



       1
         The Internal Revenue Service Processed Most Estate and Gift Tax Returns Accurately, but Some Estates Did Not
       Receive the Maximum Tax Credit (Reference Number 2000-30-115, dated August 2000).
       2
         Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
       5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.). This Act provided for gradual
       increases to the maximum amount of unified credit that can be applied against a taxpayer’s estate and/or gift tax.
       For taxpayers who died in the years 2002 and 2003, the unified credit amount is $345,800. This amount is
       scheduled to increase until it reaches $1,455,800 in 2009.
                                           2

Since we are making no recommendations in this report, a response was not required.
However, key IRS management officials reviewed the report prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report.
Please contact me at (202) 622-6510 if you have questions or Philip Shropshire, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(215) 516-2341.
  Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                      Receive the Maximum Allowable Credits




                                              Table of Contents


Background ................................................................................................. Page 1
Internal Revenue Service Actions Helped Reduce Errors in Processing
Estate Tax Returns and Associated Unified Credits .................................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology ......................... Page 4
Appendix II – Major Contributors to This Report.......................................... Page 6
Appendix III – Report Distribution List ......................................................... Page 7
  Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                      Receive the Maximum Allowable Credits

                                 Taxpayers who give money or property during their
Background
                                 lifetimes may be subject to Federal gift tax. Further, the
                                 money and property owned by a taxpayer at date of death
                                 (the estate) may be subject to Federal estate tax. A taxable
                                 estate is a decedent’s gross estate less allowable deductions.
                                 The executor of a decedent’s estate uses a United States
                                 Estate Tax Return (Form 706) to compute the estate tax
                                 imposed by the Internal Revenue Code.1 The Form 706
                                 must be filed within 9 months of a taxpayer’s date of death.
                                 The Form 706 allows a taxpayer or executor to subtract a
                                 “unified credit” from the gift tax or estate tax owed, thereby
                                 reducing or eliminating the tax. If a taxpayer does not use
                                 the entire maximum allowable unified credit during his or
                                 her lifetime to reduce or eliminate gift taxes, the estate can
                                 use the remainder to reduce or eliminate estate tax upon the
                                 taxpayer’s death. The Taxpayer Relief Act of 19971
                                 provided for gradual increases to the maximum unified
                                 credit amounts that can be used to reduce a taxpayer’s
                                 estate tax. The allowable unified credit amount for Tax
                                 Years (TY) 2002 and 2003 was $345,800. This amount
                                 is scheduled to increase until it reaches $1,455,800 in
                                 TY 2009.
                                 Increases in the unified credit amount affected the
                                 processing of approximately 120,000 estate tax returns filed
                                 in Fiscal Year 2002.2 These returns accounted for
                                 approximately $25 billion in gross tax revenue.
                                 A Treasury Inspector General for Tax Administration report
                                 issued in 20003 identified problems with the Internal
                                 Revenue Service’s (IRS) procedures for handling estate tax
                                 returns. Procedures did not cover the processing of older
                                 versions of the Form 706, which had incorrect pre-printed
                                 unified credit amounts for the years being filed. As a result,
                                 understatements of the unified credit amounts, which
                                 resulted in incorrect estate taxes, were not identified and

                                 1
                                   Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered
                                 sections of 5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C.,
                                 42 U.S.C., and 46 U.S.C. app.).
                                 2
                                   IRS Data Book 2002 Tables 1 and 2 (estate tax returns).
                                 3
                                   The Internal Revenue Service Processed Most Estate and Gift Tax
                                 Returns Accurately, but Some Estates Did Not Receive the Maximum
                                 Tax Credit (Reference Number 2000-30-115, dated August 2000).
                                                                                                 Page 1
  Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                      Receive the Maximum Allowable Credits

                                 adjusted during processing. We estimated that, without
                                 corrective actions, approximately 1,250 estates of entitled
                                 decedents would overpay $11.6 million in TY 1999.
                                 Our audit work for the current review was conducted at the
                                 Brookhaven Campus4 during the period November 2003
                                 through March 2004, covering work performed by the
                                 Cincinnati Internal Revenue Service Campus (CIRSC). The
                                 audit was conducted in accordance with Government
                                 Auditing Standards. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 We determined that the IRS effectively implemented the
Internal Revenue Service
                                 corrective actions agreed to in response to our prior audit
Actions Helped Reduce Errors
                                 report. The IRS effectively updated necessary processing
in Processing Estate Tax
                                 procedures, tax forms, and instructions related to Form 706
Returns and Associated Unified
                                 and associated unified credits. The IRS effectively updated
Credits
                                 Internal Revenue Manual (IRM) instructions for processing
                                 Form 706 to reflect the correct associated unified credit
                                 amount limitations and exclusions. Form 706 and related
                                 instructions were effectively revised to help filers determine
                                 the correct unified credit amounts. In addition, due to the
                                 IRS’ ongoing reorganization and centralization of campus
                                 sites, the CIRSC was chosen to process the Forms 706. All
                                 IRM sections, instructions, publications, forms, and web
                                 sites effectively gave reference to the new processing site
                                 address for Form 706.
                                 The IRS also successfully updated or created the necessary
                                 computer programs to accurately process the unified credits.
                                 The Requests for Information Services, the documents
                                 submitted to request computer program changes, were
                                 timely submitted. We verified that the correct tax law
                                 provisions regarding the unified credit amounts were
                                 programmed through TY 2009.
                                 In addition, the IRS effectively educated taxpayers about
                                 changes in the estate tax credits through publications and

                                 4
                                  The campuses are the data processing arm of the IRS. The campuses
                                 process paper and electronic submissions, correct errors, and forward
                                 data to the computing centers for analysis and posting to taxpayer
                                 accounts.
                                                                                                Page 2
Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                    Receive the Maximum Allowable Credits

                               web sites. The IRS publication Introduction to Estate and
                               Gift Taxes (Publication 950; revised March 2002)5 was
                               revised effectively with tables and instructions for
                               determining the correct unified credit amounts through
                               TY 2009. The IRS Small Business/Self-Employed Division
                               web site gives comprehensive explanations of estate tax, the
                               associated unified credit, and applicable exclusion amounts
                               through TY 2009.
                               We also verified, through reviews of processed returns and
                               outgoing notices, that taxpayers received the correct unified
                               credit amounts.
                               •     We reviewed a judgmental sample of 100 Forms 706 for
                                     TYs 2002 and 2003 and found that filers received the
                                     correct unified credit amounts in accordance with tax
                                     law provisions.
                               •     We researched all 138 estate tax accounts for Forms 706
                                     processed in July 2003, 85 of which had claimed unified
                                     credits. Of the 85 accounts, 83 were available for
                                     research and showed correct unified credit amounts for
                                     the date of death in accordance with tax law provisions.
                                     Although tax returns were not available for review for
                                     the remaining two accounts, there was no indication that
                                     the credits were incorrect.
                               •     We monitored outgoing notices from the CIRSC Notice
                                     and Review function to identify any Forms 706 with
                                     unified credits that were printed during the periods
                                     October 2002, January and October through December
                                     2003, and February 2004. We determined the IRS
                                     accurately corrected unified credit amounts on
                                     Forms 706 that were filed incorrectly and sent
                                     explanatory notices to the administrators of the estates.




                               5
                                   Cat. No. 14447X.


                                                                                        Page 3
     Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                         Receive the Maximum Allowable Credits

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall audit objective of this review was to evaluate the effectiveness of the corrective
actions taken in response to the recommendations in a prior Treasury Inspector General for Tax
Administration report.1
To accomplish the objective, we:
I.        Determined whether corrective measures had been taken by the Internal Revenue
          Service (IRS) to ensure filers of United States Estate Tax Returns (Form 706) receive the
          correct unified credit amounts.2
          A. Reviewed corrective actions taken to resolve processing problems as a result of
             previous audit findings and recommendations.
             1. Reviewed the response to the original report to identify which findings required
                corrective actions by the IRS and identified how and when the corrective actions
                were implemented.
             2. Evaluated the adequacy and effectiveness of corrective measures taken.
          B. Interviewed appropriate personnel in the Customer Account Services, Subject Matter
             Experts for Code and Edit and Error Resolution, and Notice and Review functions at
             the Cincinnati Internal Revenue Service Campus (CIRSC)3 to determine whether the
             necessary changes had been made. We determined whether the tax forms,
             instructions, and publications had been revised to help taxpayers comply with the tax
             laws.
          C. Determined whether the applicable Requests for Information Services requesting
             computer program changes had been submitted and whether computer programs had
             been changed and were in place to ensure timely and accurate processing of
             Form 706.
    II.   Determined whether Form 706 filers received the correct unified credit amounts in
          accordance with tax law provisions.

1
  The Internal Revenue Service Processed Most Estate and Gift Tax Returns Accurately, but Some Estates Did Not
Receive the Maximum Tax Credit (Reference Number 2000-30-115, dated August 2000).
2
  Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.). This Act provided for gradual
increases to the maximum amount of unified credit that can be applied against a taxpayer’s estate and/or gift tax.
For taxpayers who died in the years 2002 and 2003, the unified credit amount is $345,800. This amount is
scheduled to increase until it reaches $1,455,800 in 2009.
3
  The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 4
    Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                        Receive the Maximum Allowable Credits

         A. Selected samples of Forms 706 from the CIRSC using a Business Master File (BMF)4
            extract. Using a randomly selected judgmental sample of Forms 706 for each of Tax
            Years 2002 and 2003, we determined through research of IRS records whether
            associated unified credit amounts were in accordance with tax law change provisions.
            Judgmental sampling was chosen due to time constraints.
         B. Reviewed all 34 outgoing notices identified by the CIRSC Notice and Review
            function that involved Forms 706 with unified credits which were printed during the
            periods October 2002, January and October through December 2003, and
            February 2004. We determined whether the notices reflected accurate unified credit
            amounts through research of IRS records. We also determined whether the IRS
            accurately adjusted any unified credit amounts on the Forms 706 that were incorrect
            and sent explanatory notices to the administrators of the estates.
         C. Performed a preliminary survey using an extract of all Forms 706 processed to the
            BMF for July 2003. Of the 138 records, 85 were found with unified credits. We
            determined through research of IRS records whether the unified credits were correct
            according to the date of death.




4
 The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes. Form 706 is considered a business form.



                                                                                                           Page 5
 Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                     Receive the Maximum Allowable Credits

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Robert K. Irish, Audit Manager
Margaret F. Filippelli, Lead Auditor
Paul R. Baker, Senior Auditor
John J. Chiappino, Senior Auditor
David Clous, Information Technology Specialist
Ronald Stuckey, Information Technology Specialist




                                                                                       Page 6
 Processing Improvements Have Helped Ensure United States Estate Tax Return Filers
                     Receive the Maximum Allowable Credits

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 7
